2311 Douglas Street

COCKLE

Le ga 1 Bri efs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-16
ALLEN E. PEITHMAN, JR., et al.,
Petitioners,
v.
UNITED STATES,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 29th day of July, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF FOR THE CATO INSTITUTE AS AMICUS CURIAE IN
SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by Priority Mail.
Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
ILYA SHAPIRO ELISABETH S. THEODORE
TREVOR BURRUS Counsel of Record
CATO INSTITUTE ANDREW T. TUTT
1000 Mass. Ave., NW STEPHEN K. WIRTH
Washington, DC 20001 ARNOLD & PORTER
(202) 842-0200 KAYE SCHOLER LLP
ishapiro@cato.org 601 Mass. Ave., NW

Washington, DC 20001
(202) 942-5000
elisabeth.theodore
@arnoldporter.com

Subscribed and sworn to before me this 29th day of July, 2019.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

ne CCl Qudiar-h, Ahly

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38449
 

Attorneys for Petitioners

Kelsi Brown Corkran
Counsel of Record

Orrick, Herrington & Sutcliffe LLP 202-339-8497
1152 15th Street NW
Washington, DC 20005

kcorkran@orrick.com

Party name: Allen Peithman, Jr., AEP Properties, L.L.C., Sharon A. Elder

Attorneys for Respondent

Noel J. Francisco
Counsel of Record

Solicitor General 202-514-2217
United States Department of Justice

Room 5616

950 Pennsylvania Avenue, NW

Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: United States

 
